f

I

i.

(

*4 r-'■

|

'MS

<1

■$LJ>

*: r ,
• i

c

IN THE
:
SUPREME COURT OF THE UNITED STATES
•

r

Y ’ !

I

r'{
f

‘

—■'PETITIONER

Lamont R. Reed

(Your Name)

FILED
JAN 1 6 2021

vs.
■■■

■

M

■■

_— RESPONDENT(S)
Scott Frakes, Director
Svcs.
Nfebr. Dept, of Corr.
ON-PETITION FOR A WRIT OF CERTIORARI TO
i "i

The United States Court of Appeals for the Eighth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Lamont R. Reed

#83510

(Your Name)
P.O. Box 22500

(Address)
Lincoln, NE

68542-2500

(City, State, Zip Code)
N/A

(Phone Number)

QUESTION(S) PRESENTED
limitations for filing a Federal Petition
Is the AEDPA one year statute of
tolled when a State Court
for a Writ of Habeas Corpus statutorily or equitably
delays the filing of a State

Postconviction Petition by scheduling a hearing

months later and then denying the
for a necessary discovery notion for three
discovery motion without any hearing after a two month delay?

LIST OF PARTIES

| xj All parties appear in the caption of the ease on the cover page.

1j

Set £ thLof
petition is as follows:

TABLE OF CONTENTS

OPINIONS BELOW...........
.........2

JURISDICTION....................................................................................
3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE...........................................................

......... 4

REASONS FOR GRANTING THE WRIT.........................................

7
12

CONCLUSION...........

INDEX TO APPENDICES

APPENDIX A

Judgment of the Eighth Circuit Court of Appeals

APPENDIX B

Memorandum and Order of the U.S. District Court for the

District of Nebraska
APPENDIX C

Order of the Eighth Circuit Court of Appeals denying the
Petition for Hearing and Rehearing en banc.

APPENDIX D

APPENDIX E

APPENDIX F

I

TABLE OF AUTHORITIES CITED
Burns v. United States, 501 U.S.

381 U.S. 336 (1965)

Case v. Nebraska

12

129 (1991)

Gardner v. Florida, 430 U.S. 349 (1977)
Gonzalez v. Thaler, 565 U.S. 134 (2012)
Hodge v. Greiner, 269 F.3d 104 (2nd Cir. 2001)

.

11
12

. 9
7, 8

Holland v. Florida, 560 U.S. 134 (2010) .

. 11, 12

Hutson v. Quarterman, 508 F.3d 236 (5th. Cir. 2012)

. 8

Kyles v. Whitley, 498 U.S. 931 (1995) .

. 11

Ramirez v. Yates, 571 F.3d 993 (9th Cir. 2009)

. 7

State v. Jackson, 275 Neb. 434 (Neb. 2008)

. 9

294 Neb 29 (Neb. 2016)

. 9

State v. Robertson

State v. Soukarith, 260 Neb 478 (Neb. 2000)
State v. Thomas

236 Neb 553 (Neb. 1990)

9
9

Wall v. Kholi, 562 U.S. 545 (2011)...............................

7, 8, 10, 11

Woodward v. Cline. 693 F.3d 1289 (10th Cir. 2012)

7

Statutes
28 U.S.C. §2244(d)(2)

. 3, 7, 10, 11

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is
— f; or,
[ J reported at----------—---------- ----- ------| j has been designated for publication but is not yet reported; or,

. to

[x] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
• OT\

t J reported at------------------ —--------—
* ”
'’ ’
has been designated for publication but is not yet reported; or,

L i

[xj is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appeal's at
Appendix_____ to the petition and is
[ ] reported at ————.....—-------- -------- —
- > or»
[ j has been designated for publication but is not yet reported; or,
[ J is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

[ ] reported at _--------------- ------------------- ------ I’ ’
[ ] has been designated for publication but is not yet reported, or,
[ ] is unpublished.
1.

JURISDICTION

[x| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed m my case.
[v] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: 10/20/202.0,----order denying rehearing appears at Appendix
I 1 An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including _---- --------------------- (date) on
in Application No. —A----------The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

1 J For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix--------- -•
r 1 A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix---------I I An extension of time to file the petition for a writ of certiorari was granted
' to and including-----------------------(date) on .----------------------- (date) in
Application No. —A----- — •
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The 5th Amendment to the U.S

Constitution guarantees the right to the

Due Process of Law:
No person shall be ... deprived of life
due process of law,

liberty, or property, without

.

The 6th Amendment to the U.S

. Constitution guarantees the right to (effec

tive) assistance of counsel:
accused shall enjoy the right to
In all criminal prosecutions, the
... the Assistance of Counsel for his defense.

These rights apply to

the Petitioner in State

Courts through the guarantees

of the 14th Amendment:
Section 1•

... No Staue

shall make or enforce any law which shall

citizens of the United States;
abridge the privileges or immunities of
nor shall any

Statedeprive any personof life, liberty, or property

without due process of law; ....

28 U.S.C

. §2244(d)(2) provides for the

tolling of the AEDPA one year statute

of limitations:
(2) The time during which a

properlyi filed application for state

with respect to the pertinent
post-conviction, or other collateral review
judgment or claim is pending shall not be
of limitation under this subsection.

3

counted toward any period

STATEMENT OF THE CASE
The Petitioner was arrested and charged with ten different felonies related
to the possession and selling of drugs . At issue here are three charges for
count charged the delivery or possession
the possession and selling of heroin, One
with intent to deliver heroin, with a firearm, in the amount of at least 28
sentence to a maximum of life
grams; a Class IB felony with a minimum 20 year
imprisonment. Two other charges were for the delivery or possession with intent
to deliver heroin in the amounts of at least 28 grams but less than 140 grams;
Class IC felonies punishable with a mandatory minimum of 5 years up to a maximum
of 50 years. The original information claimed the Petitioner sold, during
controlled buys, 29.5 grams of heroin and then two weeks later sold 30.4 grams
of heroin.
Petitioner informed his counsel that none of his sales were for more than
2 grams of heroin

Counsel negotiated a plea agreement to six counts and che

Class II felonies
three at issue were reduced to the sale of less than 10 grams;
punishable with a minimum of 1 year up to a maximum of 50 years.
However, during the plea hearing, the State offered as its factual basis
the originally charged sales amounts; 29.5 and 30.4 grams. Although Petitioner
complained about this to his counsel, counsel failed to object to this by
explaining that the charges had been reduced to "less than 10 grams." Using
this false factual basis the State Court then sentenced the Petitioner to
the maximum sentence allowed for these charges; a minimum of 50 years to a
maximum of 50 years

a sentence with no parole eligibility.

On direct appeal a different counsel argued not only an excessive sentence
but trial counsel1s failure to object to the State's false factual basis,
That appeal was denied but preserved the ineffective assistance of counsel

4

claims for postconviction (because the record was not sufficient to rule on
those claims). (An unpublished opinion by the Nebraska Court of Appeals).
The mandate from that appeal was filed on 1/4/2017 and the one year AEDPA
time limit began running 30 days later on 2/3/2017.
Petitioner believed that the police procedures for controlled buys would
result in the police reports (which he had not had access to) having evidence
of the actual amounts

heroin purchased and would undermine the otate s

false factual basis. Nebraska's Postconviction process requires the allegations
of specific facts. In Nebraska the police reports containing these facts are
made a part of the Presentence Investigation Report (PSR). Therefore, to
prepare his Postconviction Relief Petition, the Petitioner filed a Motion
to View his PSR on 7/13/2017.
Motion to View the PSR for a hearing
The State Court set the Petitioner's
But
scheduled for 11/23/2017, some three months after the motion was filed.
denied the Motion without any hearing, having
on 9/12/2017 the State Court
taken nearly two months to do so.
Petitioner proceeded to timely file his State Postconviction Petition
arguing that his trial counsel's failure to examine the police reports and
basis that had resulted in the Petito object to the State's false factual
But the Petitioner
tioner receiving a sentence based upon false information.
could only make general allegations of what would be found in the police reports
regarding the amounts of tae sales in the controlled buys. The Postconviction
Petition asked for discovery of the police reports in the PSR and for the
opportunity to file an amended Petition after that discovery.
The Postconviction Petition was

denied without a hearing, without discovery-

5

of the police reports

and without the opportunity to amend. The State Court

denied the Postconviction "because [the Petitioner's] arguments for relief
. . are not pled with specific facts...." [Federal Habeas Record Filing #10-5,
p.20]. The appeal of that decision was affirmed by the Nebraska Supreme Court
(an unpublished opinion) on 5/31/2019. The mandate was issued on 9/11/2019,
not the 9/9/2019 date the U.S, District Court will later cite on p.2, 114 of
Appendix B.

(See, Federal Habeas Record Filing #10-1, p.4 of 10).

Writ of Habeas Corpus was filed on
Petitioner 1s Federal Petition for a
2019. The Respondent filed a Motion for Summary Judgment arguing that
it was not timely filed. The Federal District Court refused to toll the time
for filing while the Petitioner's State Motion for Viewing the PSR was pending
for a hearing that was later can celled. The U.S. District Court did so based
upon the blanket finding: (1) under Nebraska law

the Petitioner was not entitled

to any discovery without first filing a postconviction action (p.4, Appendix
B), and (2) under federal law discovery motions submitted prior to postconviction actions do not stop the clock (p.5, n.5, Appendix B).
Without the tolling the Petitioner claimed, the Court found the Petition
was filed 372 days after the State actions were final (p.2
some 7 days out of time.

II6, Appendix B)

(Actually only 5 days out of time when the Court's

two day error on the Nebraska Supreme Court's mandate is considered.)
The U.S

District Court granted the Respondent's Motion for Summary Judgment

dismissing the Petition and refusing to issue a certificate of appealability(COA).
Petitioner filed an application for a COA to the Eighth Circuit Court of Appeals.
That application was denied (Appendix A) and a Petition j_or Rehearing and
Rehearing en banc was also denied (Appendix C).

6

reasons for granting the petition
First, the U.S. District
There are two reasons for granting the Writ.
Court fabricated a split between the Circuits with its
that ’under federal law discovery
motions do not stop the

cIock.

blanket determination

motions submitted prior to postconviction

" This decision puts the Eighth Circuit in a

decision in Wall v. Kholi, 562 U.S.
position that is contrary to this Court's
545 (2011). Second, Nebraska's unique
tory tolling under this Court's

Postconviction procedures require statu

definition of "collateral review" in Wall

the Petitioner's Motion
v. Kholi, supra, and the State Court's response to
inaction through reliSB-Qe on the _
to View the PSR lulled the Petitioner into
the Petitioner to equitable tolling.
State Court's conduct which entitles
I
three cases to support its blanket
The U.S . District Court cited to
notions submitted prior to postconclusion that "under federal law discovery
" under 23 U.S.C. §2244( d) (2) ; i.e.,
conviction actions do not stop the clock
571 F.3d 993, 1000 (9th Cir.
statutory tolling. These are: Ramirez v. Yates,
2009)(discovery motions filed in the sta^e

court by habeas .-petitioner convicted

toll the habeas limitations period,
of residential burglary did not statutorily
since they did not challenge his conviction

but simply sought material that

Cline, 693 F.3d 1289
could help in later state proceedings....); Woodward _v■
1294 (10th Cir. 2012)(state court Motion

for DNA Testing did not toll AEDPA's

Greiner
one-year limitations period); Hodge v.
2001)(holding that a petitioner's motion to

259 F.3d 104, 107 (2nd Cir.

obtain discovery was not an appli

collateral review within the meaning
cation for State Postconviction or other
of subsection 2244(d)(2)).

7

Two of the cases cited by the U.S. District Court were from before the
decision in Wall v. Kholi, supra. Even so, the 2001 Hodge court recognized
there may be circumstances where a discovery motion might be "collateral review":
We need not decide whether, on facts differing from those in the pending
matter, an Article 78 proceeding might be deemed the functional equivalent of an "application for state postconviction or other collateral
review" within the meaning of subsection 2244(d)(2).
Hodge, supra, 269 F. 3d. at 107.
This was not, even then, a blanket rule against tolling for "discovery" motions.
In Wall v. Kholi, supra, this Court stated "Collateral review" as used
in 28 U.S.C. §2244(d)(2) meant "judicial reexamination of a claim in a proceeding
outside of the direct review process"; Wall, supra, at 553. The mQre recent
rulings that are in conflict with this Eighth Circuit decision's "blanket
rule" follow the Wall decision. In Hudson v. Quarterman, 508 F.3d 236, 239.'
(5th Cir. 2012) found that Texas

DMA Testing procedure DOES toll the AEDPA

time limitation and that, "Some consideration of state law is inevitable when
analyzing the AEDPA’s limitations, " Federal Circuit decisions following the
decision in Wall examine the state law procedure to determine statutory tolling.
It appears that the Eighth Circuit has not yet decided to comply with this
Court's decision in Wall v. Kholi and seeks to create this split between the
Federal Circuits with this "blanket" rule.

II
The U.S. District Court's only examination of Nebraska's Postconviction
procedures is,

" [U]nder Nebraska law, Petitioner ws not entitled to any de­

covery without first filing a post-conviction action. Id." That is NOT a

8

citation to state case law, but to this Court's decision in Gonzalez v. Thaler,
565 U.S. 134 (2012).

(See, p.4, Appendix 3). It is NOT a correct statement

of Nebraska law.
An examination of Nebraska’s postconviction procedures may require tolling
of discovery notions filed prior to Postconviction Relief Motions under this
Court's definition in Wall v. Kholi

supra. Nebraska's postconviction procedures

require the allegation of specific facts for claims of ineffective assistance
of counsel; State v. Soukarith, 260 Neb 478, 487 (2000). Once the Postconviction
Motion is filed a defendant can only present the evidence he already has:
State v. Jackson, 275 Neb 434, 436 (2008). While the State Courts have broad
discretion to grant discovery motions prior to the filing of a Postconviction
Motion, there is no precedent thau permits a Defendant

in a postconviction

proceeding to request additional discovery which would facilitate making that
same postconviction claim;Jackson, supra, (emphasis added) citing to State
v. Thomas, 236 Neb 553 (1990). Worse yet, once a Postconviction Motion is
filed

Nebraska law does not permit amending that Motion if new evidence had

been discovered; State v. Robertson, 294 Neb 29, 44 (2016). Therefore, the
Petitioner's ONLY means of obtaining the necessary specific facts of the
amounts of drugs in the controlled buys (in the police reports) was to resort
to the State Court's "broad discretion" to grant discovery requests PRIOR
to the filing of his Postconviction Motion. Waiting until AFTER that Motion
was filed would allow the Court to easily deny, for any reason, that request
under State v. Jackson, supra.
These procedures leave Nebraska defendants between a rock and a hard place.
When you have to allege specific facts on Postconviction Petitions and can't

9

discovery once a Petition is filed, our only recourse is to rely upon the
broad discretion of the State Court and request discovery prior to filing
our postconviction Motions. But it is the connecting those requests to the
specific postconviction claims that invokes the judicial reexamination of
those claims; a "collateral review” under the definition from Wall v. Kholi,
the AEDPA limitation the State Courts could arbisupra. If that did not toll
trarily run out that clock without meaningful exhaustion of a Defendant's
claims.
Petitioner's State Court Motion to View the PSR stated both the CLAIM
and the purpose for the PSR information:
The Defendant is preparing a Postconviction Relief Motion pursuant
to Neb.Rev.Stat. §29-3001 et seq. to raise issues including the
ineffective assistance of trial counsel regarding their failure uo
review the Presentence Investigation report with me.

... The Defendant

needs to view the Presentence Report to make the complete allegations
of fact to show prejudice from trial counsel's failure to review that
Report with the Defendant prior to sentencing.
[Federal Habeas Record Filing #16-1, p.1]
The Petitioner raised the same claim of ineffective assistance of trial counsel
The State Court then took
that was raised and preserved on direct, appeal.
two months to reexamine that claim before denying the Petitioner's Motion.
Those 60 days from 7/13/2017 to 9/12/2017 should be statutorily tolled under
28 U.S.C. §2244(d)(2) and the definition of "collateral review" in Wall, supra.
The Federal Courts have never
procedures are adequate to meet

decided whether Nebraska's Postconviction
requirements of the Due Process Clause.

10

See, Case v. Nebraska, 381 U.S. 336 (1965). This Court did recognize Nebraska
did NOT adopt the Uniform Postconviction Procedures Act; Case, supra (Brennan
concurring, at 345, n.3). The Court has also stated that the scope of the
States

obligation to provide collateral review is [STILL] shrouded in so

much uncertainty; Kyles v. Whitley, 498 U.S. 931, 932 (1995)(Stevens, concurring).
The Eighth Circuit needs to be brought into line with this Court's decision in Wall v. Kholi, supra

and the writ should be granted to remind U.S.

District Courts that an examination of state postconviction procedures must
be done carefully to determine if State Court proceedings meet the Court1s
definition of "other collateral review" is uniformly followed when considering
AEDPA tolling under 28 U.S.C. §2244 (d.) ( 2 ) .
Furthermore

the Petitioner should be given credit for the 60 day delay

created by the State Court as a matter of equitable tolling. Even if there
truly was no discovery before a postconviction motion was filed then why did
the State Court (1) set a hearing date in the first place and then (2) wait
60 days to deny the discovery motion without any hearing? The equitable tolling
of these 60 days should apply to the Petitioner's case under this Court1s
standard in Holland v. Florida, 560 U.S. 631

(2010). The Petitioner had been

pursuing his rights diligently; his Federal Petition would have been nearly
two months EARLY if the STate Court's action had non lulled him into prepara­
tion for a hearing that would never happen. The extraordinary circumstance
here is that the Judge who denied the discovery motion was the same Judge
who sentenced the Petitioner and accepted the State's (false)

factual basis.

If that Judge examined the police reports and found that the State's factual
basis was indeed false that would result in vacating the sentence HE had imposed.

11

Is that why it took 60 days to decide to claim he could not grant discovery
prior t'trapostconviction motion being filed? Something smells here.
of 2020 another inmate here at the Nebraska
Full disclosure: In December
State Penitentiary told the petitioner that he had.been represented by the
now retiring. I called the lawyer, being
same lawyer and that the lawyer was
cordial and congratulating him on his retirement, and I asked him if he had
the police reports from my case. He admitted that he did but he was reluctant
succeeded in cajoling him into sending
at first: to provide them to me. But I
me copies of the police reports. These reports do show that the controlled
buys were NOT

for the amounts the State claimed, and the sentencing court used,

as their factual basis. Considering that sentencing with known false information
is a violation of due process; see, Burns v. U.S. , 501 U.S. 129

146 (1991)

(abrogated on other grounds) citing to Gardner-v. Florida, 430 U.S. 349 (1977);
"extraordinary circumstance" to
this kind of petty corruption should be the
warrant special treatment in this case, Holland, supra, at 650.
The Eighth Circuit should have

considered these circumstances as applied

to the Petitioner's claim for equitable tolling under this Court's precedent
in Holland, supra

The Court should grant the writ to illustrate such extra

ordinary circumstances.
CONCLUSION
The Petition for a Writ of Certiorari should be granted.
Respectfully submitted,

#83510
Lamont
P.O. Box 2500
Lincoln, NE 68542-2500

Dfik « 0

12

